<html>
<title> - BUREAUCRATIC CHALLENGES TO HURRICANE RECOVERY IN PUERTO RICO</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


      BUREAUCRATIC CHALLENGES TO HURRICANE RECOVERY IN PUERTO RICO

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 22, 2018

                               __________

                           Serial No. 115-74

                               __________

Printed for the use of the Committee on Oversight and Government Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-943 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0265726d42617771766a676e722c616d6f2c">[email&#160;protected]</a>                    
                       
                       
                       
                       
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Virginia Foxx, North Carolina        Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Thomas Massie, Kentucky              Robin L. Kelly, Illinois
Mark Meadows, North Carolina         Brenda L. Lawrence, Michigan
Ron DeSantis, Florida                Bonnie Watson Coleman, New Jersey
Dennis A. Ross, Florida              Raja Krishnamoorthi, Illinois
Mark Walker, North Carolina          Jamie Raskin, Maryland
Rod Blum, Iowa                       Jimmy Gomez, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matt Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     Stacey E. Plaskett, Virgin Islands
Gary J. Palmer, Alabama              John P. Sarbanes, Maryland
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                  Robert Borden, Deputy Staff Director
                    William McKenna General Counsel
   Sharon Eshelman, Subcommittee on National Security Staff Director
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
                                 
                                 
                                 ------                                

                   Subcommittee on National Security

                    Ron DeSantis, Florida, Chairman
Steve Russell, Oklahoma, Vice Chair  Stephen F. Lynch, Massachusetts, 
John J. Duncan, Jr., Tennessee           Ranking Minority Member
Justin Amash, Michigan               Peter Welch, Vermont
Paul A. Gosar, Arizona               Mark DeSaulnier, California
Virginia Foxx, North Carolina        Jimmy Gomez, California
Jody B. Hice, Georgia                John P. Sarbanes, Maryland
James Comer, Kentucky                Vacancy
                                     Vacancy
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 22, 2018...................................     1

                               WITNESSES

The Honorable Michael Byrne, Assistant Administrator for Field 
  Operations, Federal Emergency Management Agency, U.S. 
  Department of Homeland Security
    Oral Statement...............................................     7
    Written Statement............................................    10
Mr. William Parks, Senior Advisor to the Assistant Secretary, 
  Office of Electricity Delivery and Energy Reliability, U.S. 
  Department of Energy
    Oral Statement...............................................    17
    Written Statement............................................    19
Mr. Peter Lopez, Regional Administrator, Region 2, U.S 
  Environmental Protection Agency
    Oral Statement...............................................    24
    Written Statement............................................    26
Mr. Scott Aaronson, Vice President, Security and Preparedness, 
  Edison Electric Institute
    Oral Statement...............................................    32
    Written Statement............................................    35
SSG Johnathan Sutton (Ret.), Former U.S. Army, 82nd Airborne 
  Division, Puerto Rico Volunteer
    Oral Statement...............................................    43
    Written Statement............................................    45

                                APPENDIX

Statement for the Record from the American Public Power 
  Association, submitted by Chairman DeSantis....................    70
Letter from Ranking Member Cummings and Ms. Plaskett to Chairman 
  Gowdy, submitted by Ms. Plaskett...............................    75
Letter from Ms. Gonzalez-Colon to the U.S. Army Corps of 
  Engineers, submitted by Ms. Gonzalez-Colon.....................    82
Observations on the Federal Response to Maria in Puerto Rico, 
  submitted by Ranking Member Lynch..............................    84
Questions for the Record, submitted by Members of the Committee..    89

 
      BUREAUCRATIC CHALLENGES TO HURRICANE RECOVERY IN PUERTO RICO

                              ----------                              


                        Thursday, March 22, 2018

                  House of Representatives,
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the subcommittee] presiding.
    Present: Representatives DeSantis, Hice, Lynch, and Welch.
    Also Present: Resident Commissioner Gonzalez-Colon and 
Delegate Plaskett.
    Mr. DeSantis. The Subcommittee on National Security will 
come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    We're here today to talk about the bureaucratic challenges 
to recovery after one of the most devastating hurricane seasons 
in history. Exactly 6 months ago yesterday, Hurricane Maria, a 
monster of a storm, struck our fellow Americans in Puerto Rico. 
The island sustained deadly 155-mile-an-hour winds and 20 to 30 
inches of rainfall in a period of just 24 hours. Sadly, lives 
were lost as a result.
    Now, the President took action by deploying the full weight 
of the United States Government. Within 6 days of Maria's 
landfall, more than 10,000 Federal employees were deployed to 
aid in the recovery.
    Puerto Rico's residents were completely without 
electricity. Thousands of homes and businesses were destroyed. 
Individuals found themselves with no power, no water, no way to 
communicate with one another. Emergency response crews have 
operated around the clock to restore these critical services 
ever since, but there's still more to do.
    Thanks to the hard work and generosity of countless people, 
thousands of meals and gallons of water have been distributed, 
children are back in school, and the most vulnerable again have 
access to medical care.
    But we need to do more. As of last week, there were still 
as many 150,000 people without power across the island. 
Interruptions due to overloads or equipment failures still 
happen virtually weekly.
    Additionally, 96 percent of the island now has access to 
potable drinking water, but when you look at the different 
regions, you see, for example, that 17 percent of the 
population in the western portion of the island are still 
lacking their own safe water supply.
    Eighty-eight percent of the gas stations are up and 
running, 92 percent of grocery stores are open, but two-fifths 
of the roadways are still either closed or impassable. And more 
than 890 generators are still the primary source of power for 
some key facilities, including the wastewater treatment plants 
and the San Juan financial district.
    In the aftermath, over 6 months, due to the lack of basic 
services, hundreds of thousands of citizens in Puerto Rico 
found themselves making the hard choice to relocate due to the 
need to find jobs because their workplaces were out of 
business, so they could send their kids to school and care for 
their elders. They have moved to many States. One of the many 
points of entry has been my State of Florida where there's been 
a major effort to offer relocation assistance.
    Many of these citizens await normalization to return to the 
island, while others are surely staying for the long-term, but 
all of them want to know when will their hometowns and their 
families be able to fully stand back on their feet. They do not 
forget Puerto Rico, and neither do we.
    The Federal Emergency Management Agency is the lead 
coordinator on all things disaster-related, overseeing the 
historic interagency effort underway in Puerto Rico. We want to 
hear FEMA's perspective on what went right and what could have 
been done better and what still needs to be done.
    Mr. Michael Byrne, the assistant administrator for field 
operations, is joining us here today to shed some light on 
FEMA's role in the recovery.
    While we have heard a lot about the U.S. Army Corps of 
Engineers' role in the effort to restore power to Puerto Rico, 
the Department of Energy is actually the lead agency for 
Emergency Support Function #12, the Energy Annex. The 
Department is responsible for facilitating the restoration of 
damaged energy systems and components, which was certainly 
needed in Puerto Rico.
    We have a representative here today from Energy's Office of 
Electricity Delivery and Energy Reliability to discuss the 
progress being made on the ground and the work yet to be done. 
So I want to thank Mr. Parks for being here.
    These two officials will help us shed light on what it will 
take to get the power fully restored, and we will want to know 
what it will take to make the part of the task so that the 
effort is continued without interruptions.
    Another critical element of restoring Puerto Rico is the 
access to safe, drinkable water and the removal of solid waste. 
Mr. Peter Lopez from the Environmental Protection Agency is 
here to testify about EPA's role in ensuring the residents of 
Puerto Rico can and will have access to safe drinking water, 
and what the Federal, State, and local authorities need to do 
to ensure this in the future.
    We also have Scott Aaronson from the Edison Electric 
Institute. EEI represents all U.S. investor-owned electric 
companies. In response to a request for assistance, EEI 
coordinated with its members to deploy incident management 
teams in support of power restoration efforts across the 
island. Through this agreement, industry efforts coordinate 
with the Puerto Rico Electric Power Authority and the Army 
Corps to restore power to the people of Puerto Rico.
    All told, almost 6,700 Federal personnel, civilian and 
military, are currently supporting the recovery and restoration 
efforts in Puerto Rico and the U.S. Virgin Islands. Thousands 
more from nongovernment and charitable organizations have come 
forward to help get Puerto Rico back on its feet.
    So we want to discuss what lessons we've learned from this 
devastation before the next hurricane season is upon us. We 
also want to hear what changes are being made to ensure we do 
better going forward and that the lessons learned to help the 
Nation be better prepared for such catastrophic events.
    And Puerto Rico, I mean, they're going to face another 
hurricane season here in just a few months, and I think it's 
important we solve all these problems by then.
    So I want to thank you for your efforts to date and for 
coming to answer our questions.
    And with that, I will yield 5 minutes to the ranking 
member, Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman. I would like to thank 
you for convening this hearing to examine the progress of 
Federal hurricane relief and recovery efforts in Puerto Rico.
    I'd also like to thank our witnesses for your willingness 
to help the subcommittee with its work.
    It is the mission of the Federal Emergency Management 
Agency, also known as FEMA, to, quote, ``lead America to 
prepare for, respond to, and recover from disasters with a 
vision of a Nation prepared,'' close quote.
    The critical role of FEMA as our Nation's coordinating 
Federal entity in response to all domestic disasters demands 
that the agency operate at maximum efficiency in order to 
mitigate the devastating effects of national emergencies on the 
safety and security of the American people.
    In the aftermath of the landfall of two Category 5 
hurricanes, Irma and Maria, just 2 weeks apart on Puerto Rico 
in September of 2017, FEMA has led Federal relief and recovery 
efforts to provide emergency food and water, temporary housing, 
healthcare, power grid restoration, and other basic services to 
the survivors of this continuing humanitarian crisis.
    Regrettably, however, the Agency's mission has been greatly 
impaired by many of the same oversight challenges that 
undermined the failed Federal response to Hurricane Katrina 
back in 2005. Puerto Rico and its 3.5 million American citizens 
deserves better. I think we all agree on that.
    As reported by the Select Committee to Investigate the 
Preparation for and Response to Hurricane Katrina in 2006, FEMA 
logistics and contracting systems did not support a targeted, 
massive, and sustained provision of commodities--that was the 
finding--to affected Gulf residents.
    The Agency did not have advance contracts in place that 
anticipated what supplies would be needed in the wake of a 
hurricane. According to the Select Committee, this, quote, 
``led to chaos and the potential for waste and fraud as 
acquisitions were made in haste,'' close quote.
    Our own committee hearings into Katrina contracting in 2006 
revealed instances where debris removal contractors would 
arrive at a Federal dumpsite, check in, and then drive away, 
only to return later with the same truckload of debris and 
receive double payment.
    The Federal Government also spent millions of dollars on 
contracts with companies to install temporary blue plastic 
sheeting on damaged homes. These blue roofs were billed to the 
American taxpayer but never installed.
    Despite the lessons learned from Hurricane Katrina more 
than a decade ago, we are once again receiving a similar report 
of waste, fraud, and abuse in Federal contracting relating to 
the Puerto Rican relief effort.
    Nearly 1 month after the hurricane hit the island, FEMA 
awarded $156 million contract to a one-person company owned by 
Tiffany Brown, Tribute Contracting LLC, to provide 30 million 
emergency meals.
    Ms. Brown received a contract despite her failure to 
fulfill at least five previous and much smaller Federal 
contracts. This is one woman. Those previous contracts included 
a 27,000 Federal Prison system contract that was canceled 
because she could not deliver the required beans, flour, and 
spaghetti, and other food.
    As the sole employee of her company, Ms. Brown sought help 
in fulfilling her new FEMA contract and hired a wedding caterer 
with 11 employees to freeze dry meals.
    In a letter sent to FEMA last month, members of the Senate 
Government Affairs Committee also underscored that Ms. Brown's 
initial nine-page bid appeared to be plagiarized from several 
readily available sources on the Internet.
    While FEMA eventually canceled the contract after Ms. Brown 
could only deliver 50,000 of the required 30 million meals, the 
residents of Puerto Rico, the American taxpayer, and this 
committee are left asking how FEMA could have awarded the 
contract in the first place.
    Similarly, in October of 2017 the Agency awarded two 
contracts, totaling $30 million, to a newly formed Florida 
company, Bronze Star, LLC, to provide emergency tarps and 
plastic sheeting for repairs in Puerto Rico. The company was 
owned by Richard and Kayon Jones, two brothers operating out of 
a single-family house. They had never received a Federal 
contract or delivered these materials before. FEMA also 
eventually canceled the contracts in November and admitted that 
it had not performed due diligence.
    President Trump has graded the Federal relief and recovery 
effort in Puerto Rico as, quote, ``great,'' close quote, 
``amazing,'' close quote, ``tremendous,'' and ``a 10 out of 
10.'' I don't think so. It may have been a 10 for Tiffany Brown 
and the Jones brothers, but it surely hasn't been a 10 for the 
people of Puerto Rico or for the U.S. taxpayer.
    In light of these and other reports, congressional 
oversight will serve an even more critical role in ensuring 
that our massive recovery effort will not be further impeded by 
a failure to properly vet Federal contractors.
    I strongly urge the Agency to comply with this committee's 
request for documents pertaining to the Federal preparedness 
and response to Hurricanes Irma and Maria in Puerto Rico and 
the U.S. Virgin Islands. This includes a bipartisan document 
request by our full committee chairman, Chairman Gowdy, and 
Ranking Member Cummings over 5 months ago.
    I would also urge the leadership of this committee to 
organize a bipartisan oversight delegation to the damaged 
areas, as we did in 2005 following Hurricane Katrina. I know 
that the Massachusetts delegation, led by Senator Elizabeth 
Warren, were there in January and brought back a very 
informative report. That would allow us to conduct direct 
oversight of Federal recovery efforts, receive firsthand 
accounts from the affected people, and hopefully get this 
right.
    Thank you, Mr. Chairman. I really do appreciate you holding 
this hearing. And I look forward to discuss these and other 
issues with our witnesses. And I yield back the balance of my 
time.
    Mr. DeSantis. I thank the gentleman.
    The chair notes the presence of our colleague from Puerto 
Rico, Jenniffer Gonzalez-Colon. And without objection, I move 
that she be recognized and allowed to participate in today's 
hearing.
    There being none, I would like to take this opportunity to 
actually recognize her for an opening statement.
    Miss Gonzalez-Colon. Thank you, Mr. Chairman. And with 
that, I want to begin this saying thank you to you, Chairman 
DeSantis and Ranking Member Lynch, for agreeing to have this 
very important hearing on Puerto Rico and agreeing to have this 
meeting on the challenge of the recovery process on the island.
    And, Mr. Chairman, I want to thank you, particularly on 
behalf of my 3.4 million American citizens living in Puerto 
Rico, because of your steadfast leadership and support in the 
aftermath of the Hurricanes Irma and Maria, not only for the 
residents of the island, but also for the hundreds of thousands 
who have since the hurricane been forced to move to your home 
State of Florida.
    And one of the main issues we still face on the island is 
the great anxiety and the frustration among all the citizens in 
the island over the time it has taken to get the power being 
restored.
    One of the main issues is in the private sector, the 
individuals and businesses had to rely on generators at high 
cost and environmental impact. It has caused considerable 
business losses from closures, limited hours, and cost 
overruns.
    Specifically, the people with medication pumps, 
respirators, and the like, it has caused considerable 
situations. They are in municipalities where no resident had 
power until late January. And we are talking about more than 
100,000 people still without power. And that's one thing.
    I want to say, also, that I want to thank the witnesses 
that are here today to give us some light about that recovery 
process. And with that, I want to say thank you to Mr. Byrne. 
He has always been available to all my calls in all that 
recovery process.
    And I want to thank you, because I know you've been away 
from home many hours, and your people from FEMA. And I know 
you're doing your job.
    We still need more. And I hope this hearing will help us 
out to establish what is needed from Congress, what is needed 
from the Federal Government.
    Same thing to the rest of the Federal agencies. Over the 
last 3 weeks, residents of the island have been subject to 
great stress and worry upon learning that many repair and 
construction crews have ended in terms of their contracts or 
are being relocated to higher-priority locations.
    There is some shock on the island and dismay at the 
impression that the mission is winding down before the job is 
finished and the apparent lack of a concerted effort to explain 
what is happening.
    A rural working family without electricity for 6 months 
does not want to hear of standard protocols or contract 
restrictions. They want to see full effort directed to 
reconnecting every remaining home everywhere.
    And we're talking about everywhere in the island, not just 
the metropolitan area on the northern side of the island. We're 
talking about the central part or the towns where the hurricane 
made landfall.
    I stated in another hearing last week, and I will say it 
again, I just want you to imagine if your own hometown here in 
the mainland will be without electricity for 2 months, 3, 4, 6 
months, without power, with also failing communications, with 
the only assurance that, ``We are working on it.''
    What will happen? The people of Puerto Rico have been 
admirably patient, but are justifiably tired. If we were a 
State having five congressional district and two Senators, who 
will not leave a State, nobody will leave a State without power 
for 6 months.
    And now we're facing the next hurricane season in 3 months. 
So that's the biggest challenge that we're facing. That's the 
reason this hearing is so important for us.
    We are now over 90 percent capacity online, but still less 
80 percent of transmission and distribution lines at a full 
load. That means that the Corps of Engineers estimated that 95 
percent of the capacity will be up by the end of March, but 
that does not necessarily mean that the 100,000 people will 
have power in their houses by the end of August of this year.
    So that's my biggest challenge, and that's the reason we 
need to know the reality. That's the reason we need to know 
what do we need to have a 30-day timeframe in terms of FEMA, 
Corps of Engineers, all the Federal agencies to make that 
happen. If it's assigning money, if it's amending the rules, if 
it's amending the resources in terms of another CR, what do we 
need to make that happen?
    For that, we need to bear in mind that rebuilding needs to 
be done in such a manner as to consider the possibility of such 
a catastrophic event happening again. Hurricane season starts, 
as we already said, in 3 months, and we have presented with 
other colleagues from both sides of the aisle amendments to 
open up the Stafford Act limits so we can be more flexible and 
not just patch up what is broken, but rebuild to update 
standards, Section 20601 of last month's CR.
    There is also $2 billion in that continuing resolution 
specifically meant for improvement of the power grid. We also 
know that that's not even close to what we need. But at least 
that's a start, and we must maintain the sense of urgency that 
sometimes is missing.
    With that, I will yield back the balance of my time. I will 
save the rest for the questions.
    Thank you, Mr. Chairman.
    Mr. DeSantis. Great. I thank my friend from Puerto Rico.
    Now, you just heard that votes have been called. I've got 
five of you to give opening statements. So I think it's 
probably wise that we just briefly recess this. We'll go vote. 
It's probably going to be a 30-minute evolution. Probably no 
earlier than 10:45.
    And so I appreciate the witnesses' indulgence on this. Any 
time you do these hearings, if we did it 2 o'clock yesterday, 
we would have had votes then.
    So the subcommittee will recess at the call of the chair. 
We plan to return immediately at the conclusion of votes.
    So the committee stands in recess.
    Mr. DeSantis. The subcommittee will come to order.
    I appreciate the indulgence of the witnesses as we tackle 
the ominous omnibus bill.
    It's my pleasure to introduce our witnesses. We have 
Michael Byrne, Assistant Administrator for Field Operations at 
the Federal Emergency Management Agency; William Park, Senior 
Advisor to Assistant Secretary at the Office of Electricity 
Delivery and Energy Reliability at the U.S. Department of 
Energy; Mr. Peter Lopez, Regional Administrator for Region 2 at 
the U.S. Environmental Protection Agency; Mr. Scott Aaronson, 
Vice President for Security and Preparedness at EEI; and Staff 
Sergeant Johnathan Sutton, U.S. Army, retired, a volunteer in 
Puerto Rico during this recovery effort.
    Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. Please stand and raise your right hand.
    Do you solemnly swear that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Okay. Please be seated.
    All witnesses answered in the affirmative.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. Your entire written statement will be 
made part of the record.
    As a reminder, the clock in front of you shows the 
remaining time. During your opening statement, the light will 
turn yellow when you have 30 seconds left and red when your 
time is up.
    Please also remember to press the button to turn your 
microphone on before speaking.
    And with that, I would like to recognize Mr. Byrne for 5 
minutes.

                       WITNESS STATEMENTS

                   STATEMENT OF MICHAEL BYRNE

    Mr. Byrne. Thank you. Good morning, Chairman DeSantis, 
Ranking Member Lynch, Representative Gonzalez-Colon, and 
members of the subcommittee.
    My name is Mike Byrne, and I'm the Federal coordinating 
officer in Puerto Rico. Thank you for this opportunity to 
testify.
    In the emergency management community, we talk about 
needing to be prepared for the big one. Last fall, Puerto Rico 
experienced the catastrophic impacts that we train our entire 
careers for. Hurricane Maria is the fifth-strongest storm, and 
it's the strongest storm to strike Puerto Rico in nearly a 
century. The storm left nearly all of Puerto Rico's 3.5 million 
people without power, and the lack of backup generators shut 
down other critical infrastructure, like water treatment plants 
and hospitals.
    Communications were decimated, hindering initial 
operations. Seaports, airstrips were severely damaged, 
resulting in limited initial access to bring in commodities. 
Roads and bridges were washed away, cutting off isolated, hard-
to-reach communities.
    Following the devastation of this catastrophic storm, FEMA 
and the Commonwealth and our other Federal partners took 
immediate action. We established the largest domestic sea 
bridge operation in U.S. history, delivering more than a 
billion dollars in commodities such as food, water, tarps, and 
construction materials. These commodities were delivered by 
air, off-road vehicles, and often by foot, making it the 
largest and longest commodity delivery mission in FEMA's 
history, and it is still going on.
    Also, one of the largest medical response missions. More 
than 4,700 medical personnel deployed and cared for more than 
38,000 survivors. FEMA mission-assigned 80 Federal agencies 
with more than 700 distinct mission assignments, supporting 
power restoration, temporary power, debris removal, et cetera, 
all of the different response functions that we do.
    At the height of the response, there were nearly 19,000 
Federal personnel deployed to Puerto Rico working around the 
clock with territory and local officials.
    The U.S. Army Corps of Engineers, mission-assigned by FEMA, 
installed more than 1,900 emergency generators. To put that 
context, previously the most installed was 310 during Katrina. 
We still have over 800 of those still working.
    While there's lots of work to be done, we have seen 
significant signs of progress. More than 90 percent of the 
power has been restored, with crews working around the clock in 
treacherous, mountainous terrain to work on lines as quickly 
and safely as possible.
    PRASA reports nearly 99 percent of their customers have 
water restored. More than 6.4 million cubic yards of debris has 
been removed. All 68 hospitals are back in operation and have 
been since mid-November. More than $10 billion has already been 
spent, between FEMA and SBA assistance programs, that has been 
approved for the response and recovery efforts.
    We are also committed to identifying solutions around 
housing, from direct financial assistance to direct repairs. 
We're working every avenue possible to restore housing.
    In order to meet the long-term recovery needs and move into 
recovery, FEMA and our partners are implementing the structure 
and functions of the National Disaster Recovery Framework in 
Puerto Rico. We've established 12 sectors to holistically 
address the magnitude of the damage across these systems and 
how we can combine and leverage resources to more effectively 
and efficiently restore these systems.
    Thanks to authorities given to us by Congress in the 
Bipartisan Budget Act last month, we can now provide assistance 
funding to Puerto Rico for critical services to replace or 
restore infrastructure to industry standards without regard to 
their pre-disaster conditions. We can also replace or restore 
components not damaged by the disaster when it is necessary to 
restore the entire system to industry standards. These new 
authorities are critical to ensuring we help build back a more 
resilient Puerto Rico.
    We're also greeting ready for the 2018 hurricane season. 
We've already hired over 1,500 local hires on the island, 
Puerto Ricans. It is actually 52 percent of my workforce right 
now, and I plan to get to 90 percent by the 1-year anniversary.
    We're also doing training. We're also resupplying our 
warehouses with stockpiles, adjusting our national-level 
contracts. We're also going to be doing a significant amount of 
training and exercises. In fact, we have three major exercises 
scheduled before the end of June.
    Hurricanes Irma and Maria, along with all the other 2017 
disasters, highlight the importance of preparing for the worst. 
As Administrator Long unveiled last week, FEMA's strategic plan 
includes the goal of building a culture of preparedness and 
readying the Nation for catastrophic disasters.
    I encourage Congress and Americans across the country to 
partner with us as we look to get the Nation more prepared. I 
appreciate the opportunity to appear before you today. I look 
forward to your questions.
    Thank you.
    [Prepared statement of Mr. Byrne follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    Mr. Parks, you're up for 5 minutes.

                   STATEMENT OF WILLIAM PARKS

    Mr. Parks. Chairman DeSantis, Ranking Member Lynch, 
Representative Gonzalez-Colon, and other members, thank you for 
the opportunity to be here today.
    The mission of DOE's Office of Electricity Delivery and 
Energy Reliability is to develop innovative solutions to ensure 
that our Nation's energy infrastructure remains reliable, 
affordable, and resilient. In order to fulfill this mission, we 
leverage the technical capabilities of the national 
laboratories, the power marketing authorities, and partnership 
with the private sector.
    Our organization is the lead for providing energy-related 
expertise to FEMA, interagency partners, and the administration 
emergency response activities. We're the coordinating agency 
for Emergency Support Function 12 under the National Response 
Framework and the sector-specific agency for energy under 
Presidential Directive 21.
    In addition, we're the primary agency for infrastructure 
systems recovery support function under the National Disaster 
Recovery Framework.
    The impacts of these hurricanes, as mentioned, adding to 
their pre-existing conditions of the grid in Puerto Rico has 
led to an unprecedented restoration period. The significant 
damage done to the electricity sector and the complicated 
nature of an island response created major logistical 
challenges, as mentioned by Mr. Byrne.
    In the wake of these, DOE has received $17 million in 
mission assignments from FEMA to provide technical assistance 
for hurricane response and recovery. In addition, we received 
$13 million in the supplemental funding for response and 
recovery activities. This gives us the opportunity to help the 
Commonwealth incorporate resilience and reliability into the 
new Puerto Rico grid.
    The hurricane season of 2017 serves to highlight the need 
for a continued and adaptive focus on energy system resilience. 
The presence of responders at utility operations and early 
engagement with utilities is crucial, especially in the 
presence of Federal and State emergency operation centers.
    The administration has conveyed in numerous hearings that 
Congress should revisit the Stafford Act, and recovery efforts 
would focus on resilience and investments that will mitigate 
further damage. As mentioned, having the flexibility to do more 
than just restore back to pre-existing conditions in a 
situation like Puerto Rico is crucial.
    We also brought in the power marketing authorities with 
their knowledge of building systems. Long-term deployments have 
really stressed our capacity, as this has been the longest 
deployment that we've ever had, at 6 months.
    We are working on a plan to develop Puerto Rico's grid, 
listing actions and options for building in greater resiliency, 
power quality, and reliability. It will include developing a 
power flow model for Puerto Rico that allows better both grid 
planning and grid operations. This will inform FEMA's 
overarching comprehensive plan as required in the supplemental 
funding legislation.
    DOE has also engaged in Southern States Energy Board to 
provide support to the Puerto Rico Governor on territorial 
regulatory and policy issues to set up the best structure for 
going forward in the future.
    I am grateful for and impressed by the hard work of the 
emergency responders and recovery experts during this hurricane 
season.
    Over the next several months, our primary focus in Puerto 
Rico will be working with our partners to support the ability 
of the power grid and the critical infrastructure to withstand 
future events in a reliable, resilient, and affordable manner.
    Thank you, and I look forward to your questions.
    [Prepared statement of Mr. Parks follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    Mr. Lopez, you're up for 5 minutes.

                    STATEMENT OF PETER LOPEZ

    Mr. Lopez. Thank you, Chairman. And in the interest of 
time, I will try to consolidate my remarks. You have the full 
testimony in front of you.
    So good morning, Chairman DeSantis, Ranking Member Lynch, 
Representative Gonzalez Colon, members of the subcommittee.
    My name is Pete Lopez. I'm the Regional Administrator for 
Region 2, which comprises New York, New Jersey, Puerto Rico, 
U.S. Virgin Islands, and eight federally recognized Indian 
nations.
    Mr. Lopez. So I'm very pleased to be part of this 
assemblage today.
    Just to put it in perspective, my experience in New York 
State, as a State assembly member, gave me the opportunity to 
be involved in intense storm-related recovery. In my region, 
Northern Appalachian, we were impacted by Hurricane Irene and 
Tropical Storm Lee. And just to put it in perspective, my 
family was homeless, my parents homeless. We struggled with 
many of the similar issues impacting Puerto Rico.
    The challenge, of course, of geographic isolation and the 
socioeconomic conditions also gave me a sensitivity and an 
understanding of how complicated it can be to respond when you 
have an isolated and economically disadvantaged community. So, 
effectively, the more disadvantaged, the slower and more 
painful the recovery.
    On a personal note, I also have family on the island. And I 
can tell you, as I work with my colleagues, and I'm very 
pleased with their engagement, we take this personally.
    Mr. Lopez. We are galvanized by their struggles, and we are 
working intensely to provide results.
    I traveled to the islands last fall. Actually, I took off 
in October just as the storms were hitting. We made our initial 
visit. And the issue there was to focus not just on structure 
and function, but also on coordinating and seeking problem-
solving opportunities, be creative with our problem solving.
    I plan to go back in the next few weeks to engage as we 
transfer between response and recovery, each being a little bit 
different. So with that said, we have been very pleased to work 
with FEMA, Army Corps, other colleagues, our State and Federal 
partners, our local partners. We realize that the work is not 
complete and that this will be a long time--a long journey, 
just to sum it up.
    So in terms of our actions, we have spent roughly $69 
million. We have other funds that we are working to engage with 
as we move into recovery. You will see a listing of all the 
work that we have done, a sampling of it. Just in highlighting, 
we have addressed chemical and hazardous waste facilities, 
Superfund and oil sites. We have addressed water treatment 
plants, sewer treatment plants, ambient air monitoring, 
hazardous waste, hazardous household waste, vegetative debris. 
The list goes on. Coast Guard, partnering with them to remove 
oil and hazardous substances. We are very focused, and we will 
remain committed.
    So as we move forward, we are very pleased to be part of 
the response protocol under FEMA. We are actively engaged, and 
are not lead on issues, but we are helping support, almost like 
wing men. I guess that is the best way to describe us. We are 
tucked right in there and working collectively.
    So the other thing that is of note as we move forward is 
that there are very serious issues, and I just want to 
highlight this quickly. As we rebuild, we also want to make 
sure there is capacity from the local governments to be 
sustainable as well. So in terms of their management structure, 
their organizational structure, the financing of solid waste 
landfill, maintenance over time, those are serious issues to 
us, and we will be helping to support that as well.
    So in sum, our success depends on our communication, our 
integration, State, Federal, local level, and our creative 
thinking. So we thank Congress for the resources, and we are 
doing our best. We will continue. Public safety, health of the 
environment matters, and we are right there.
    Thank you.
    [Prepared statement of Mr. Lopez follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hurd. Thank you. Mr. Aaronson, 5 minutes.

                  STATEMENT OF SCOTT AARONSON

    Mr. Aaronson. Thank you, Chairman DeSantis, Ranking Member 
Lynch, Representative Gonzalez-Colon, and members of the 
subcommittee, it is a privilege to be here to discuss power 
restoration in Puerto Rico. And I will also abbreviate my 
remarks as best I can in the interest of time. I will also 
direct you to the pictures that we are going to have rolling. 
Pictures really are worth 1,000 words to understand the level 
of devastation and the amount of restoration work that is going 
on.
    I am here today testifying on behalf of the Edison Electric 
Institute member companies, which is all the Nation's investor-
owned electric companies.
    When duty calls, EEI's companies, crews, and contractors 
bring decades of experience and unique capabilities to restore 
power for those affected by natural disasters. That spirt of 
mutual assistance is a hallmark of our industry and was on full 
display throughout the historic 2017 hurricane season as all 
segments of the industry worked closely with our Federal 
partners in response to Hurricanes Harvey, Irma, and Nate, as 
well as the wildfires ravaged the Western United States. And 
that coordination continues today in support of the people of 
Puerto Rico.
    As has been noted, 2 days ago, we marked the 6-month 
anniversary of the day Hurricane Marie made landfall. This 
devastating category 4 hurricane impacted all critical 
infrastructure on the island, including the energy grid. The 
magnitude of destruction to the grid is unlike anything we have 
ever seen on the U.S. mainland, making this power restoration 
mission more difficult than other missions. As of today, the 
Puerto Rico Electric Power Authority, or PREPA, reports that 
more than 93 percent of the 1.47 million customers who can 
receive electricity, have had their power restored. It is 
important to note that one customer is equal to one electric 
meter, but that one meter may serve several people.
    That progress could not have been made without the 
partnership of PREPA, FEMA, the U.S. Army Corps of Engineers 
and its contractors, and the many mutual assistance crews who 
worked tirelessly to restore power for the people of Puerto 
Rico. And while there has been significant progress, nobody 
deserves to be without power for this long. EEI, our member 
companies, and the rest of the industry, remain committed to 
this mission in helping our fellow citizens on the island.
    To that end, I would like to explain our industry's role 
and the challenges we had faced in supporting power 
restoration. PREPA made its initial ask for mutual assistance 
from the mainland industry on October 31. Since then, nearly 60 
investor-owned electric companies and public power utilities 
have committed personnel, equipment, and materials to the 
efforts.
    Within days of receiving the request for mutual assistance, 
two industry storm bosses, or incident response experts, were 
deployed to Puerto Rico to assess the situation on the ground 
and develop a comprehensive restoration plan. It should be 
noted that a contingent of industry crews from New York, 
including EEI member crews, has been on the island since 
October from agreement between Governors Rossello and Cuomo.
    Our November 22, Governor Rossello appointed Carlos Torres, 
who is formerly of Con Edison, as the power restoration 
coordinator to oversee the multi-pronged restoration effort, 
and to align the work of industry, PREPA, the Army Corps, and 
others committed to the mission. This unified command has been 
instrumental in managing the large complex restoration safely, 
while ensuring crews, capabilities, and materials are being 
used effectively. It really is a shared effort that has 
embodied the motto one team, one mission.
    Applying lessons learned on the mainland, an incident 
command structure was created for PREPA that include an 
incident command staff in San Juan, and seven incident 
management teams, or IMTs. The arrival of crews from mainland 
electric companies was the culmination of months of critical, 
but much less visible work, necessary to make this effort a 
success.
    In most deployments, workers load their equipment into 
their trucks and set out on the roads to help. In this case, 
nearly 20 barges were needed to get trucks and equipment to 
Puerto Rico. And workers had to be flown to the island. All 
told, more than 3,000 workers from the mainland industry have 
been a part of this mission. Companies from across the mainland 
also had sent stocks of critical materials, including poles, 
transformers, insulators, wire, and other necessities to ensure 
crews had equipment and material compatible with the island 
system. It is important to understand that companies committed 
to this mutual assistance effort are doing so at cost, on a 
not-for-profit basis.
    As of today, about 900 mutual assistance workers remain on 
the island. In every single restoration, a point is reached 
where a substantial amount of work is completed, and the amount 
and type of workers needed to complete the job is reassessed.
    The restoration plan ensures that crews will now converge 
into the hardest-hit areas, and that the right number of 
workers remain actively engaged and continue to work safely and 
as quickly as possible. This deliberate rightsizing of the 
workforce is typical. As is the case with all restorations, the 
final customers will be the most difficult and time-consuming 
to restore.
    In this case, the terrain on the island is a recurring 
challenge. While the response in Texas and Florida to 
Hurricanes Harvey and Irma were extremely efficient, we were 
reluctant to compare storms, as each has unique challenges. It 
is natural to suggest the response in Puerto Rico should have 
been executed as it was on the mainland, but there are 
significant differences that made the situation on the island 
unique. For one, you cannot preposition crews on the island for 
fear that responders would become victims. Then there is the 
challenge of getting people and equipment to the island.
    Finally, material availability is imperative. We stockpile 
equipment on the mainland and made as much available to PREPA 
as possible. But their energy grid had some unique components, 
and their stockpiles were diminished.
    Our industry's mantra is to be better today than we were 
yesterday, and better tomorrow than we are today. While it is 
difficult to extrapolate too much from such an anomalous event, 
we will be undertaking a full after-action study to ensure we 
glean lessons that can help preparations on the mainland, and 
to prevent a similar long-term recovery should Puerto Rico be 
impacted by another catastrophic hurricane.
    Again, I appreciate the opportunity to be here and for the 
subcommittee's interest in this important topic. And I look 
forward to your questions.
    [Prepared statement of Mr. Aaronson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you. Staff Sergeant Sutton, you are up, 
5 minutes.

                 STATEMENT OF JOHNATHAN SUTTON

    Mr. Sutton. Good morning, Chairman, ranking members, Miss 
Gonzalez, thank you for the opportunity to be here today. I 
initially flew over to Puerto Rico on the 26th of September, 
and I stayed all the way until December 2 of 2017. From getting 
over there, I pretty much--you know, I went on my own accord. I 
was actually living in Maui, Hawaii, at the time. Never heard 
anything about anything on the news about the devastation, what 
is going on, you know, how bad this actually was. I ended up 
getting ahold of a few military members that I knew were 
already over there, and they went ahead and sent me current 
active photos, videos, and anything that I could possibly get 
my hands on over there.
    I went on my own accord. Touched down. As soon as I got in 
the airport, I honestly felt like I was the only person coming 
into Puerto Rico trying to bring aid, you know, just as a 
regular person. My flight, you know, obviously can fit over 400 
people, but, you know, there was 10.
    I came in. As soon as I touched down, I found the, you 
know, FBI. Located homeland security. You know, identified 
myself.You know, let they know, Hey, I have a, you know, 
security clearance with DOD. You know, I am retired military. I 
was working with 82nd Airborne Division, working alongside with 
Special Forces groups and have been deployed multiple times. 
And I am here to volunteer, whatever you need. You know, told 
them my capabilities of being able to rebuild homes, provide 
power, AC. Anything you need, I can make it happen.
    They said they didn't need any help. Apply online. So I 
said, Okay.
    I went on my own accord. Went throughout Puerto Rico. You 
know, ran into a few police officers. Their big advice was,you 
know, You need to be really careful because you are not from 
around here.
    Right now, there is no communications outside the airport, 
period. Our communications are just here. The moment you leave 
the airport, I can't tell you what is going to happen to you. 
There was obviously looting. People being killed over the small 
amount of dollars they do have in their pockets. And moving 
around the city was practically impossible. Curfews were in 
place. Limited supplies, limited fuels, and people are very 
desperate.
    There was multiple times that I would go throughout Puerto 
Rico, and, you know, it is just a mad house. You know, people 
would either rush your car, rush your vehicle,you know, just 
trying to get whatever supplies you got on you.
    There is multiple times I would go out with, you know, 
people. And, honestly, it would be, like, too late. A lot of 
people, you would show up, say, Hey, I heard you had an elderly 
member or a child here. We are here to help you out. And, 
unfortunately, they passed away the night prior with 
dehydration, malnutrition, and a lot of people throughout the 
months became more devastated to the point where they took 
their own lives by either jumping off mountains or cliffs 
because they knew nobody was going to come. Nobody was coming. 
It had been months. And to be without power, being without 
water, being without food, it was honestly probably harder than 
any deployment I have ever been on in my life to see the amount 
of, you know, suffering, human suffering.
    And, you know, we were all looking for answers. I myself, 
you know, moved into a church member's home in Dorado. To paint 
a little better picture for you for Dorado and Bayamon, that is 
probably the--probably one of the worst side you could probably 
go in. Probably one of worst rough areas of D.C. you could ever 
think of, New York, L.A., wherever you want to think of. And 
being a guy that is not from the island, obviously it is not 
very safe for myself. I took the chance, took the risk, because 
I knew these people were in need, and they definitely needed 
some assistance.
    Throughout the months, you know, I did everything I could 
from getting medical supplies, getting food to people in hard-
to-reach areas. And every single time I would go out, I would 
be the first person that anyone would ever see. They would let 
me know, hey, I haven't seen the mayor. I haven't seen FEMA. I 
haven't seen Red Cross. Can you help me?
    And, you know, I would definitely go out of my way, working 
with local hospitals, working with local organizations. 
Honestly, I did it all myself. I tried helping out with FEMA. I 
would work with them to try to deliver their supplies for them. 
And a lot of the responses that I would get would be, There is 
a lot of political things happening here, and I can't make this 
happen. Can you do it for me? And they would give me addresses, 
the locations, and I would go to them and make that happen for 
anybody on Puerto Rico.
    I would even, you know, take messages from random people 
over the internet, say, Hey, this is my address. My 
grandfather, you know, hasn't seen anybody. He is a retired 
veteran. Can you help me out? And I would go out of my way to 
make that happen. And honestly, the 3 months that I was there, 
I mean, I have no words to really describe, you know, the 
devastation that is currently out there. And that is still 
currently going on, so----
    Mr. DeSantis. Thank you.
    Mr. Sutton. Thank you for your time.
    I look forward to your questions.
    [Prepared statement of Mr. Sutton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. I appreciate it. Thanks a lot.
    The chair is now going to recognize my colleague from 
Puerto Rico for the first round of questions. So you are 
recognized for 5 minutes.
    Miss Gonzalez-Colon. Thank you, Mr. Chairman. And thank you 
all members, the panel. I will try to be brief.
    The first question will jump directly to Mr. Mike Byrne.
    What do we need to complete the restoration of power in 30 
days?
    Mr. Byrne. I think where we are at right now in power is, 
if it was easy, it got done already. And even the easy part was 
hard in Puerto Rico because of the challenges of the terrain 
and challenges of the conditions.
    Miss Gonzalez-Colon. I know that part. And I know also--I 
just got 4 minutes now. But what do we need? Is it money? Is it 
resources?
    I do know you reimbursed the government--I mean, PREPA for 
the resources and the contracts they are doing with the mutual 
assistance agreement. We know the Corps of Engineers is going 
to continue to have some conflicts until April 7. My concern is 
that that higher end process will take some time. And you still 
got a lot of those contractors on the island until April 7. And 
we got still a lot of municipalities in the center part of the 
island, and we don't have all the materials on the island yet. 
And although Corp of Engineers is saying that the island will 
be 100 percent recover, in May or June, the reality is that 
when I sat with those personnel, they were saying July, they 
say in August, and maybe more than that. And I don't want to, 
you know, lie to my people back home. I know you do neither, 
you know. What do we need to make a plan for a 30-day re-
powering of the island?
    Mr. Byrne. I, quite frankly, have the trust in the unified 
command that has been in place for the last 6 months. They have 
been able to do difficult things. And they are--have a plan 
now. And, again, in fact, talking to Carlos Torres, that we 
both know and respect and the work he is doing there. He said, 
Mike, the hard part to do is the stuff we are doing now, and it 
is like working on a car engine. You can bring in lots more 
mechanics, but you can only get so many hands into the vehicle 
at one time.
    So we are focused on that. And if the smart people at PREPA 
or at the Corps or any of those contractors can come up with a 
way or--to do this faster, you know we are going to support it. 
I am going to support it 1,000 percent.
    Miss Gonzalez-Colon. What about the materials?
    Mr. Byrne. We are going to continue to provide materials 
and get them in. As you know, we had challenges with material. 
There was other disasters going on. There was--you know, we 
were making material, and 30 days later it was getting put to 
use in terms of things. But, again, we are not going to let up 
until we get all the material we need and get that last mile. 
You know, as we have talked about, some of these houses are up 
a road that got washed out that are, you know, way in the back 
that--where we have to get to. But, again, we are not going to 
stop until we get to that.
    Miss Gonzalez-Colon. I will ask you to have, again, another 
meeting with the Corp of Engineers and new people from FEMA, 
and the people from PREPA, to see how we can maybe cut some red 
tape in terms of knowing if we can make a plan of--you know, 
cut those long months and days and have actually, you know, a 
final expectation, how long it will take to the people. People 
don't know how long they need to wait to actually have power 
again in their homes. And you know that. I mean, you are living 
on the island. You know how it has been living there.
    My next question will be, because I am running out of time. 
What deadlines have passed or are approaching to such things as 
aid applications, or 100 percent Federal funding? And those 
terms are statutory or administrative. I know, and I want to 
thank the people from EPA for answering my letter in terms of 
100 percent Federal assistance in the removal of debris, and 
thanking the President for allowing the new waiver for 60 days 
and making that happen. Thanking the administration for that. 
And I just received the letter on the 19 of March. That is one 
of the questions.
    The second one would be for the whole panel in terms of the 
Department of Energy. I know you are helping the Government of 
Puerto Rico, specifically PREPA. One thing is patching up what 
we have. Is the system going to be strong enough to resist even 
a tropical storm in August, or even to face another hurricane 
season in 3 months? Are we rebuilding? Are we patching up? I 
mean, what is the next step to re-powering the island and make 
a better system?
    Mr. Parks. So the first job was to get restoration, and 
that is what Mike has been talking about. We are looking at 
both short-term and longer-term things that are needed to 
really get that resiliency built into it. And as you saw, the 
San Juan blackout a couple weeks ago as an indication that some 
of this equipment has probably been--has a life expectancy that 
is reduced as a function of going through it.
    So the teams, Army Corps, FEMA, our people on the ground, 
are putting up as much as they can the best systems with the 
equipment they have and everything. But some of those things 
over the next few years may fail prematurely. And part of what 
we want to do is make sure that we are constantly increasing 
things, like inspection schedules and all of these routine 
maintenance things that are accelerated so we can predict and 
understand how fast we need to replace things relative to their 
normal life.
    Those are the kind of things that need to happen. We need 
to make sure that there are contract paths for getting things 
like microgrids in place. There are clear ideas of how to best 
serve some of the rural communities and that they understand 
options, and those decisions can be made.
    So those are the kind of things you need to think about. I 
think the key is vigilance now, and vigilance as we go forward 
and not--even if there is not another major event this summer, 
you want to continue to work toward making sure you have that 
resiliency and those things like the maintenance schedules set 
up and in place and operating.
    Mr. DeSantis. Thank you.
    The gentlelady's time is expired.
    The chair now recognizes the ranking member of the 
subcommittee, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    I want to thank the witnesses again.
    Staff Sergeant Sutton, thank you for your service to your 
country, and also for your willingness to pitch in at your own 
expense. And I just think that your involvement here was 
heroic, and we really appreciate it. I am sure the families of 
Puerto Rico appreciate that as well.
    Mike Byrne, let's talk about the decision of FEMA to award 
the contract for providing 30 million meals to victims in 
Puerto Rico to Tiffany Brown, a single person. She had a little 
LLC that she set up. So we got all these people without food, 
without water.
    A month after the storm, so 30 days out. They have already 
have been without food for a month. And we award $156 million 
contract to Tiffany Brown. And she is already on the website, 
on your website, as having defaulted on a previous small 
contract for $27,000 to provide beans and rice and spaghetti. 
She has already bellied up on that one. She is on the website 
in default. She can't do that. So we give her a contract for 
$156 million. How does that happen? How does that happen?
    Mr. Byrne. So we went through our normal contracting. We 
went through--followed the Federal procurement practices.
    Mr. Lynch. That was anything but normal. That has to be 
abnormal, right?
    Mr. Byrne. You know, we issued about just under 2,000 
contracts during that period of time. And the block that that 
particular contract was in, we did end up awarding six other 
contracts to other suppliers, so we were able to meet the 
demand. Didn't really impact our demand. And we also held this 
individual and this company accountable. We did not pay them 
$156 million, we only paid them for what they delivered--
50,000.
    Mr. Lynch. You hired them and you didn't hire somebody else 
who could do the job, so I don't want to gloss over that. But, 
I mean, my point is that she should not have got that contract 
in the first place. One, for capacity. Just one person. She 
hired a wedding caterer, you know. You know, this was a 
disaster. So there was a sense of urgency that I don't think is 
being shared by FEMA, to be honest with you. And then she has 
got a prior history here.
    So here is what I am thinking. I mean, we have companies 
that provide meals ready to eat to our military, and they do a 
good job. Now, we don't need meals ready to eat because, you 
know, they are more expensive because they have got to last for 
5 years. However, we got companies that do that type of thing.
    Why wouldn't we reach out to one of those companies, have 
them bid, or just, you know, buy the stuff or arrange for 
acquisition through one of those companies, and then we will 
replace it later if we have to. But the thing is, we shouldn't 
have waited 30 days to get the bid out. And then once it got 
out, we shouldn't have given it to Tiffany Brown. And, you 
know, I am not even mentioning the Jones Brothers who got the 
contract for plastic roofing.
    Mr. Byrne. So we did distribute over 63 million meals. And 
even this week, we are still distributing every day, tens of 
thousands of meals out there. But, look, we are all about 
getting better. And if there is anything we can do to improve 
and make sure that we are doing better and we don't even let 
even one of our 2,000 contracts slip through the cracks and not 
be effective, then we will do that. We will certainly work to 
get better at that.
    Mr. Lynch. Let me just say.You know, my background is 
construction management. I was an ironworker for 20 years. That 
is what I got my degree in. And we usually had a list of 
qualified bidders, people that had a history and a record and a 
reputation for doing the right thing and doing it effectively 
and so that when the job came up, we had a pool of people that 
we could actually reach out to that we could rely upon. And you 
don't operate that way. And, you know, we also have performance 
bonds where we have the contractor post a performance bond 
where if they go belly up, we just grab their bond, and we go 
on to the next person. I don't see that going on at FEMA.
    Mr. Byrne. Well, we dealt with this contract quickly and 
effectively. And we----
    Mr. Lynch. Effectively?
    Mr. Byrne. We did away with it, sir.
    Mr. Lynch. Are you kidding me?
    Mr. Byrne. We stopped the contract.
    Mr. Lynch. No, no. Firing the person is not handling the 
contract effectively. Having them go belly up and non perform 
and then you fire them, that is not effectively. Picking a good 
contractor that provides the relief that the taxpayer paid for, 
that is efficiently, right?
    Mr. Byrne. Well, we did manage to do that for the vast 
majority of the--again----
    Mr. Lynch. Except for this $156 million contract. I don't 
know. I am not hearing what I thought I would be hearing after 
seeing what is going on here.
    I yield back.
    Mr. DeSantis. The gentleman yields.
    The chair now recognizes himself for 5 minutes.
    Mr. Byrne, with this new language about allowing the 
rebuilding to go up to industry standards, not necessarily just 
the status quo anti, is that going to be a benefit for Puerto 
Rico specifically? Because wasn't their infrastructure really 
degraded? And so, yeah, it was a very bad storm. But because 
some of it wasn't up to industry standards, the damage was that 
much worse?
    Mr. Byrne. Yes, Mr. Chairman. This language that you guys 
give us really is going to streamline our process and enable us 
to do the right thing. I mean, just imagine the discussions we 
would have of ``he said, she said,'' of what was the condition 
before, what wasn't, what was old, what was new. We now don't 
have to worry about that. We are just focused on doing the 
right thing.
    And there was one other thing that you called for in the 
legislation for us to develop a plan, with the Commonwealth of 
Puerto Rico, to bring in the best and the brightest to design 
the right solution, not just project by project, but what is 
the right solution for the whole infrastructure system? And we 
are going to--we have 180 days to put that together, and we are 
going to let that be our guide as to how we build this back 
better and stronger.
    Mr. DeSantis. So they needed attention on the 
infrastructure even before the storm. And so having to go 
through as painful as this has been, on the back side, is it 
your expectation that we will a much stronger infrastructure 
system there in terms of the electricity and the water than we 
had previous to the storm?
    Mr. Byrne. Yes. That is exactly the opportunity that is in 
front of us. We are going to be vigilant. We are going to be 
direct. We are going to make sure that we use, when we bring 
in, some of the experts, my colleagues on the panel with me, to 
get their advice from their smart people so that--you know, we 
are not the experts in power. We are going to rely on the 
experts in power to tell us what the right thing to do. And we 
are going to use the authorities you gave us to end, and the 
funding you gave us, to make sure it happens.
    Mr. DeSantis. Good. Well, we want to see that put to use. 
And we want the folks back on their feet.
    I am going to yield the remaining time I have to my friend 
Jennifer, and so I will recognize her now.
    Miss Gonzalez-Colon. Thank you, Mr. Chairman.
    Again, another question is regarding the deeds or titles of 
the home--of the owners of those homes, and that, you know, Mr. 
Byrne. That is one of the major problems we got on the island. 
The people have having a lot of difficulties applying for 
housing and individual assistance as they cannot command their 
home values, or even the homeowners, because they are leaving 
and--lands that were family owned or living there from a lot of 
years. And I actually filed a bill with Congressman Espaillat 
that addressed this issue. I just want to know if FEMA is 
willing to sit with me and HUD Department. Actually I already 
did that with Deputy Secretary of HUD trying to address this 
issue that has been there for many years.
    Are you willing to do that?
    Mr. Byrne. Yes. Absolutely. There is nothing more 
heartbreaking than to see somebody lose their home, and then 
have paperwork get in the way. We encourage those families to 
go to the disaster recovery centers. We have got 64 of them set 
up throughout the island. However you can get back on the phone 
with us, we will find a way to work that. And I look forward 
with you on it.
    Miss Gonzalez-Colon. I am glad to hear that, because that 
is one the biggest situation in the island even--I know that 
even locally, the construction code grandfather a lot of those 
informal kind of living. And actually the hurricane just 
spotlighted the situation on the island. I know the situation, 
and I will--this will be to EPA.
    How has this situation, hurricane, affected the status of 
the landfills in Puerto Rico? Because I know the debris and the 
proposals made it for alternative debris disposal has been 
increasing after the hurricane. And we already got a problem 
with a lot of landfills before the hurricane.
    And the third question, because I know I am going to run 
out of time, Mr. Byrne, is regarding--you know that PREPA is 
under the bankruptcy situation. So one of the main problems we 
got is PREPA don't got the money to buy the materials, in the 
first place, the liquidity to buy the materials and then got 
the reimbursement from FEMA to make that happen.
    So that will, you know, make longer the process of the 
recovery. So that is one of the reasons I know the Department 
of Energy and the Corps of Engineers were involved in the 
process. How can we make that process a faster one, and with 
your leadership there helping us out through your--faster 
situation.
    Mr. Lopez. Thank you, Miss Colon.
    So in regards to landfills, we share your urgent concern. 
And to answer your question, the storms have just made a 
situation that was difficult, and really a crisis situation, 
worse. So we have worked hard with FEMA and our colleagues to 
intercept waste before it is put into the landfill. So whether 
it is household waste, hazardous waste, vegetative debris, any 
number of potential additions to the landfills we are working 
to intercept it and then manage it. In some cases, shipping it 
off island for proper assessment.
    The issue, of course, is the long-term. And we are very 
dedicated to working with the Commonwealth and USVI, because 
they have the same problem on their islands to get them to a 
point where they have landfills that are secure. We know that 
many of the landfills, none of them, are in full compliance. We 
have 11 that we have--13 that we have orders against because 
they are potentially contaminating groundwater, they could be 
hazards to the community.
    Our challenge is that the ultimate responsibility lies with 
the Commonwealth in terms of managing and operating. So our 
goal, and we have developed a strategic plan in region 2 with 
EPA, we would like to reach out to the Commonwealth, bring all 
the stakeholders together, and begin looking at how do we 
address solid waste universally?
    How do we reduce the amount of waste going to landfills? 
What do we do for source separation, recycling. We like to be 
part of that process. How do we drive funding towards the 
island which the island will control to put in secure landfills 
with proper liners, proper leachate collection, to make ones 
that are unsafe, close them down. So we are very much united 
with you. The term ``crisis'' applies, and we are addressing 
this very urgently. We share your concern.
    Mr. Byrne. As to----
    Mr. DeSantis. Let me--the time is up. I am going to 
recognize--because we are going to have the vote called, so if 
there is time on the back end, I would love to give you an 
opportunity.
    Before I recognize our friend from the Virgin Islands, I 
have a statement from the American Public Power Association. I 
would ask unanimous consent that this be made part of the 
record. And without objection, it will be made part of the 
record.
    Mr. DeSantis. The chair does note the presence of Ms. 
Plaskett from the Virgin Islands. I ask unanimous consent that 
she be waived in and be allowed to participate. Without 
objection, so ordered.
    And then I now would like to recognize her for 5 minutes.
    Ms. Plaskett. Thank you very much, Mr. Chairman, ranking 
member, for holding this hearing, and thank you, gentlemen, for 
being here this morning.
    Part of the oversight and government reform purpose is to 
oversee and ensure that operations of the government are 
working smoothly and efficiently.
    In October, bipartisan members of this committee sent a 
letter to DHS and have been requesting from FEMA response for 
that letter related to these hurricanes. We have not, to date, 
received the documents from that. And that is something that is 
very, very unnerving, and, potentially, very problematic in our 
ability to continue to do our work.
    In the course of our own investigation in this committee, 
one of the things that we have recognized is, in the response, 
potentially some communications problem between agencies, and 
how are agencies working getting supplies to the people that 
are affected by these hurricanes.
    One of the instances we found out were surrounding Walmart 
and emergency food. We have emails and text messages between 
Walmart and government officials, and Congress and Puerto Rico 
who discuss the desperate need for fuel at the Walmart stores 
to be able to sustain the food that was there. In one, on 
September 23 and 24, a Walmart official wrote to the Puerto 
Rico official saying: Walmart, any word on the fuel situation 
on the island? Puerto Rico, there is some redaction, no word 
yet. I put in numerous requests with FEMA and haven't heard 
from anything. Because of your issue, I put in a request to be 
imbedded into FEMA headquarters tomorrow which will allow me to 
get this sorted out directly. I will let you know if anything 
happens.
    So our committee then issued to both myself and Ranking 
Member Cummings sent a letter to Trey Gowdy, which I would ask 
unanimous consent to be put into the record, which is a request 
regarding our bipartisan investigation of the response to the 
hurricanes and requesting information and outlining what we 
found out from the investigation and Walmart.
    So, Mr. Byrne, how was Walmart's emergency request for a 
generator fuel handled by FEMA?
    First, is there any objection?
    Mr. DeSantis. Without objection.
    Ms. Plaskett. Thank you.
    Mr. Byrne, what was Walmart's emergency request for 
generator fuel handled by FEMA?
    Mr. Byrne. At that point, I don't think I was at the 
response, but I am familiar with the issue and the--at that 
point in time in a response, we are focused--we have to 
prioritize where we are going to get emergency fuel to, and our 
focus was on hospitals, you know, dialysis centers, and 
community health centers and public safety buildings.
    Ms. Plaskett. How many generators were brought down to 
Puerto Rico?
    Mr. Byrne. A total of about 1,900.
    Ms. Plaskett. 1,900. And is there a protocol to have 
generators in places where food is being stored for food to be 
able--is that within the purview of FEMA to get generators to 
those locations?
    Mr. Byrne. We do. But with the issue of private sector 
companies, you know, I think we have to be cautious here. You 
know, this really is--you know, if we are going to rely on FEMA 
to be the single source for both private sector----
    Ms. Plaskett. Okay. I guess the question is--the question 
is are you--have protocols to be able to do it?
    I understand the issue with private sector. But we heard 
earlier in the testimony that there was issues in contracting 
for emergency food to be brought down. So when you have food 
there on the ground, does it then become a priority to make 
sure that that food supply doesn't become perishable?
    Mr. Byrne. We certainly take responsibility for everything 
we bring in.
    Ms. Plaskett. Okay. But one of the things I wanted to get 
back to with regard to the documents that we requested in 
October, do you have a date when you are going to respond to 
the letter that was sent by Chairman Gowdy and Ranking Member 
Cummings requesting the information from DHS?
    Mr. Byrne. This is the first that I have been made aware of 
that, but I am sure that I will take that back and we will make 
sure we respond.
    Ms. Plaskett. This is the first time that you heard about 
the letter that we requested information through FEMA from DHS?
    Mr. Byrne. Yes, ma'am. My role is to be the leader of the 
response in Puerto Rico. I am not really involved in the 
aspects that you just described.
    Ms. Plaskett. Okay. So will you get the message to get 
Brock Long for us?
    Mr. Byrne. I will carry it forward personally.
    Ms. Plaskett. Thank you.
    Mr. Byrne. Yes, ma'am.
    Ms. Plaskett. And do you know, Mr. Byrne, if FEMA has a 
plan for getting fuel to food storage generators in the event 
of another hurricane if it is being knocked out.
    Mr. Byrne. We are developing plans right now to have 
prepositioned a lot of fuel and generators on the island. We 
haven't worked out any details. But, again, I think we are 
going to--we are going to ask the private sector to also make 
plans, because this has got to be a whole community and not 
just us that is supplying all the emergency----
    Ms. Plaskett. I agree completely.
    So as my colleague, Jennifer Gonzalez-Colon, said, we are 
now several months before hurricane season again. Predictions 
are that this hurricane season should be the same level of 
activity as last year's.
    Are we prepared for a hurricane in the Virgin Islands and 
Puerto Rico, or one or two?
    Mr. Parks, is the Department--is your department prepared 
for that?
    Mr. Parks. We have--we prepare every year for----
    Ms. Plaskett. Are you prepared for the level of hurricanes 
happening in the Virgin Islands and Puerto Rico that occurred. 
That is a yes or no.
    Are you prepared for it?
    Mr. Parks. Well, our role--the simple answer is, I would 
say we are not, because we are not--that is not our function.
    Ms. Plaskett. If you are called upon, are you saying that 
you have no role to play in that when----
    Mr. Parks. No, ma'am. I didn't say that. You asked for a 
yes-or-no answer.
    Mr. Plaskett. Is your agency prepared when called upon by 
FEMA to support that?
    Mr. Parks. Absolutely. Absolutely. Yes.
    Ms. Plaskett. And, Mr. Byrne, does FEMA have in place 
prioritization for the hurricane season that is coming knowing 
the compromised state that the Caribbean Americans are in right 
now?
    Mr. Byrne. We are going to take extraordinary steps to make 
sure we have stuff in place. But I would have to be honest, it 
is going to be a rough year. There is a fragile, you know, 
stability that we built, and we are going to need to take extra 
steps to make sure we have extra on the island, and we are 
doing that.
    Ms. Plaskett. Thank you.
    I yield back.
    Mr. DeSantis. The gentlelady yields back.
    With that, I don't see any additional members.
    Would you like to do another round?
    Miss Gonzalez-Colon. Mr. Chairman, I would like, if you 
don't mind, to introduce into the record a letter I sent to the 
Corps of Engineers on the 13 of March of this year about the 
power restoration, to the record, if you don't mind.
    Mr. DeSantis. Without objection.
    Mr. DeSantis. Mr. Lynch, you have something for the record?
    Mr. Lynch. I just have one quick question, but I also have 
observations on Federal response to Maria in Puerto Rico. I 
would like to have this accepted into the record.
    Mr. DeSantis. Without objection.
    Mr. Lynch. Thank you.
    And the question I had is, so, Mr. Byrne, I realize you 
did----
    Mr. DeSantis. Well, hold on. Let me just see.
    Do you have any questions?
    Let me recognize her.
    Mr. Lynch. Oh, I am sorry. Sure. I thought she yielded. No 
problem.
    Mr. DeSantis. The gentlelady is recognized for 5 minutes.
    Miss Gonzalez-Colon. Thank you, Mr. Chairman.
    This question will be to Edison Energy. My question will be 
how stable or reliable is the repair grid right now?
    Mr. Aaronson. Thank you, Representative Gonzalez-Colon.
    So I want to point to some of the things that were said by 
Mr. Parks and Mr. Byrne. While the grid before Hurricane Maria 
made landfall was certainly--had--in disrepair, I think the 
fact that we have the ability to not just repair and replace, 
as FEMA rules would dictate, but repair and replace to code is 
going to give us a leg up on a little bit more stability and 
resilience from the grid. I'd also note the quality of work 
under the unified command from the mutual assistance crews, 
from the Army Corps of Engineers and its associated 
contractors, and certainly from PREPA, is cause for some 
confidence that we are going to be in a better spot.
    And then the last thing I would say is, and this is true of 
the entire hurricane season. Mother Nature did one heck of a 
housecleaning, and took out a lot of the debris and vegetation 
that obviously can interfere with the safe transmission and 
distribution of electricity.
    So while I think to the points that were just made, we need 
to be vigilant and we need to continue to do the work. We are 
in a more resilient situation than we were prior to the 2017 
season.
    Miss Gonzalez-Colon. You just brought me a question to 
FEMA, and that is that some of the people from the Corps of 
Engineers were telling me that they never got the mission for 
FEMA to rebuild in a new way because they just got the 
provision of repair. And I just want to put in the record that 
we managed to include an amendment during the separate 
supplemental and the Budget Act, an amendment to Section 2601, 
the administrator of the Federal Emergency Management may 
provide assistance pursuant to the Section 428 of the Robert T. 
Stafford Act for critical services to replace or restore the 
function of a facility or assistance industry standard without 
regard to the pre-disaster condition of the facility or system, 
to replace or restore components of the facility not damaged by 
the disaster where necessary to fully effecuate the replacement 
or restoration of the disaster-damaged component.
    So that provision was included because precisely all of the 
restrictions your office told me during that process, during 
the hearings, during the codels that were on the island. So 
that is included in the amendment this Congress passed. And I 
think you already got the provisions and laws, so there is no 
excuse now to say that the Army Corps, or FEMA, don't got a 
provision to make that happen.
    Mr. Byrne. Yes. Definitely. I mean, there is nothing that 
we are more excited about than that, and the ability to 
actually do the right thing. But the Corps was accurate. The 
mission assignment we get was for emergency work, not permanent 
work. And, really, now is the part where we got to be 
deliberate. We have to take time to take a look and figure out 
what the right thing to do is going forward, because we have 
got an extraordinary chance, as you said. It did wipe things 
clean, destroyed 80 percent of the infrastructure. Now we get a 
chance. You know, the bad news is people have suffered, and we 
feel for that. But the good news is, is we are going to be able 
to--we have an opportunity to build this back the right way.
    Miss Gonzalez-Colon. Mr. Byrne, another question regarding 
the Army Corps and the mayors is about how long it takes the 
reimbursement process? And during the last hearing from the 
homeland security, most of the mayors were--even Mr. Long is 
saying that you are dealing with a lot of requests from many 
States, but without the resources to manage a lot of those 
requests. Are you saying that you don't have enough people to 
manage the request of many of the reclamation from the 
municipalities?
    Mr. Byrne. Well, we are in the--you know, as far as the 
payback, you know, we recognize we want to move faster with the 
mayors and the documentation process that we have got in place. 
I think in any disaster that I have worked, the initial part is 
usually a little bumpy, but I think we will smooth that out.
    But as far as more people, my plan is to hire more people. 
Hire more people on Puerto Rico. As I said, I have 52 percent 
of my workforce is Puerto Ricans right now. I am going to try 
to get to 90 percent by the 1-year anniversary. And we are 
going bring on as many people as we need to provide the level 
of service that you are looking for.
    Miss Gonzalez-Colon. And, Mr. Chairman, one last question, 
and I will ask Mr. Byrne to file that on record for the 
committee, and it will be regarding the community disaster loan 
that I know the FEMA and the Treasury Department--actually, the 
Secretary of the Treasury is on the island today. Can you 
submit to this committee information regarding the status of 
the CDL for the municipalities and the State government 
regarding that during the next 5 days?
    Mr. Byrne. Sure.
    Miss Gonzalez-Colon. Thank you.
    And I yield back.
    Mr. DeSantis. The gentlelady yields back.
    Mr. Lynch.
    Mr. Lynch. Just a follow-up.
    Mr. Byrne, we also--following up on Ms. Plaskett's request, 
we also have a request in for documents regarding the Tribute 
Contracting, LLC, documents. And so we would like to have those 
documents provided by Tiffany Brown in order to get that 
contract. As you know, she is suing FEMA. She is seeking a $70 
million settlement. And the wedding caterer is also suing to 
get their money from her. And so these documents will be made 
available in the core proceedings. We are going to get them 
anyway, but it would be a sign of good faith if FEMA provided 
those documents rather than us have to go to the court and get 
those documents from them. Okay?
    Mr. Byrne. Yes, sir. I will take that back.
    Mr. Lynch. All right. Thank you.
    I yield back.
    Mr. DeSantis. The gentleman yields back.
    I want to thank you. The votes--do you want to yield her 
the rest of your time?
    Mr. Lynch. Yeah. Sure. Sorry.
    Ms. Plaskett. Thank you.
    Mr. Sutton, thank you, again, as so many of my colleagues 
have thanked you, and all of the people who came to volunteer 
in Puerto Rico and the Virgin Islands during the tragedies and 
the issues that we had after the hurricanes.
    You arrived, you said, about a week after Hurricane Maria 
hit Puerto Rico. What was your visual account? And what do you 
know about the food shortages that were going on there?
    Mr. Sutton. Well, the, you know, visual account, I mean, 
the island looked like a--not just a hurricane, a tornado hit. 
I mean, you are talking from power lines, houses. I mean, all 
that was left was the frame of a house, not a house.
    Ms. Plaskett. Sure. Because there are tornadoes inside 
hurricanes.
    Mr. Sutton. Oh, pretty much. I mean, this one, yeah, I 
would almost believe it the way it looked. I went there the 
year prior. And, you know, Puerto Rico is beautiful.
    Ms. Plaskett. So what about the food storage? Because I 
don't have a lot of time.
    Food shortages. Did you see any?
    Mr. Sutton. Oh, yeah. You know, most of the food that was 
there was available. You know, you are talking about San Juan 
being in immaculate shape. But outside of San Juan, nobody had 
food. No one had abilities to get that food either.
    Ms. Plaskett. And did you see any, or were you witness to 
anyone who lost their life during this time, not from injuries 
from the hurricane but potentially from food shortages?
    Mr. Sutton. Yes, ma'am. There were several elderly, young 
children under the age of 5. People who, you know, died of 
dehydration, died of malnutrition. And it is just, honestly, 
because the lack of supply of food and ability to get to the 
food. And a lot of those collection points for FEMA were ``You 
come to us. We don't come to you.''
    And the hard part is people lost their cars and buildings, 
and they live up on the mountains or----
    Ms. Plaskett. Right. Jeffrey Parks, who is a key member of 
the joint task force of Katrina, arrived in Puerto Rico around 
September 30 and stayed for 10 days. In his statement for the 
record, he concludes that the lack of communications in the 
aftermath of Hurricane Marie was, quote, ``the single largest 
response failure.''
    Mr. Sutton, do you agree with that assessment?
    Mr. Sutton. I completely agree with that.
    Ms. Plaskett. And why do you say that?
    Mr. Sutton. I mean, there was no communications. When I 
landed in the airport, the only communications were inside the 
airport.
    Ms. Plaskett. Right.
    Mr. Sutton. Even 15, 20 days after, the only forms of 
communication were inside of an RV in Eswado (ph). Outside of 
that, no communications.
    Ms. Plaskett. Mr. Byrne, I know that just trying to operate 
in the Virgin Islands right after the storm, I remember 
Jennifer and I were able to text a couple of times in between. 
But you found people congregating in one small area because the 
communications had gone out.
    Do you have communications in place? What are the plans if 
something like this happens again to get emergency 
communication out to the critical areas?
    Mr. Byrne. Yeah. We have taken steps. We have actually 
given satellite phones to all 78 mayors. But we are going to do 
more. We are trying to restore, get as much back of the 
existing system and strengthen it before the season starts. 
There is a huge effort under way for that. And that is really a 
public-private partnership, because the normal communication 
companies are also engaged in helping us get the powers and the 
towers back.
    Ms. Plaskett. And what about--you talk about the towers. 
The same Jeffrey Parks says that he wrote to us, that he did 
not see a single temporary cell tower in the 10 days that he 
was in Puerto Rico.
    How many temporary cell towers were installed within a 
month after Maria? And what is the plans in terms of temporary 
cell towers in the next instance?
    Mr. Byrne. I would have to get back to you with the numbers 
for that first month of how many temporary cell towers. But we 
are getting together. We have a summit where we are going to 
sit down with all the parts, the municipalities, the mayors, 
the governor's staff, and to come up with additional plans to 
make sure that we--no stone is left unturned in terms of being 
as ready as we can to get through, as I said earlier, what is 
going to be a--potentially a risky season.
    Ms. Plaskett. Mr. Chairman, I just am really grateful for 
you for having this hearing. I think it is really important for 
us to do these assessments now as we are coming up to the 
hurricane season. My concern is we have heard from the 
witnesses with regard to do we have microgrids in place? Will 
they be in place in time for us to be able to power back up as 
quickly as possible to get things going.
    You know, I worry about the people who were--areas where--
especially devastated and people are living in marginal lives 
right now. People in Anna's Hope on St. Thomas and Coral Bay on 
St. Johns, Awim (ph) and White Lady on St. Croix, Vieques. 
People who live in Eduardo. Those are places that were 
completely obliterated after the hurricanes, and they are 
living on the edge as it stands. And my great concern is that 
this commit does what it needs to do to hold the Federal 
Government accountable, give them the tools that they need, the 
support and financing that is going to allow them to be on the 
ground if, God forbid, this should happen again.
    So thank you so much, gentlemen, for being here and being 
open and honest with us and getting this information back so 
that we can all do our own part to ensure that American lives 
are not lost and that the economy is continually moving.
    Thank you.
    Mr. DeSantis. The gentlewoman's time has expired.
    I want to thank the witnesses again for appearing before us 
today. The hearing record will remain open for 2 weeks for any 
member to submit a written opening statement or questions for 
the record.
    If there is no further business, without objection, the 
Subcommittee on National Security stands adjourned.
    [Whereupon, at 12:25 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
